CREDIT CARD
ACCOUNT
OPENING
DISCLOSURE
VISA PLATINUM
Approved Credit Limit:
This Disclosure is incorporated into and becomes part of Your LOANLINER® Consumer Credit Card Agreement &
Disclosure. Please keep this attached to Your LOANLINER Consumer Credit Card Agreement & Disclosure.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases
APR for Balance Transfers
APR for Cash Advances

9.00%
This APR will vary with the market based on the Prime Rate.
9.00%
This APR will vary with the market based on the Prime Rate.
9.00%
This APR will vary with the market based on the Prime Rate.

Penalty APR and When it Applies

None

How to Avoid Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will
not charge You any interest on purchases if You pay Your entire balance by
the due date each month. We will begin charging interest on cash advances
and balance transfers on the transaction date.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Set-up and Maintenance Fees
- Annual Fee
- Account Set-up Fee
- Program Fee
- Participation Fee
- Additional Card Fee
- Application Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee

None
None
None
None
None
None
None
3.00% of the amount of each cash advance
1.00% of each transaction in U.S. dollars

- Transaction Fee for Purchases

None

Penalty Fees
- Late Payment Fee
- Returned Payment Fee

Up to $20.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)." See Your Account Agreement for more
details.
Billing Rights:
Information on Your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.

SEE NEXT PAGE for more important information about Your Account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02100861-MXC20-C-3-122018 (MXC201-E)

Military Lending Act Disclosures:
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of
consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent may
not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or
account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the credit
transaction; any application fee charged (other than certain application fees for specified credit transactions or accounts);
and any participation fee charged (other than certain participation fees for a credit card account).
Please call us at (800) 323-2129 to receive oral disclosures of the Military Lending Act disclosure above and a description
of the payment obligation.
Other Fees & Disclosures:
Late Payment Fee:
$20.00 or the amount of the required minimum payment, whichever is less, if You are 5 or more days late in making a
payment. If Your Account is subject to a Late Payment Fee, the fee will be charged to Your Account when You do not make
the required minimum payment by or within the number of days of the statement Payment Due Date set forth on this
Disclosure.
Cash Advance Fee (Finance Charge):
3.00% of each cash advance. If Your Account is subject to a Cash Advance Fee (finance charge), the fee will be charged
to Your Account when You obtain a cash advance from an ATM, the Credit Union or other financial institution.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less. If Your Account is subject to a Returned
Payment Fee, the fee will be charged to Your Account when a payment is returned for any reason.
Card Replacement Fee:
$10.00. If Your Account is subject to a Card Replacement Fee, a fee will be charged for each replacement Card that is
issued to You for any reason.
Document Copy Fee:
$5.00 . If Your Account is subject to a Document Copy Fee, except as limited by applicable law, a fee may be charged to
Your Account for each copy of a sales draft or statement that You request (except when the request is made in connection
with a billing error made by the Credit Union).
Emergency Card Replacement Fee:
$165.00. If Your Account is subject to an Emergency Card Replacement Fee, a fee will be charged to Your Account for
each emergency replacement Card that is issued to You.
PIN Replacement Fee:
$5.00. If Your Account is subject to a PIN Replacement Fee, a fee will be charged to Your Account whenever You request
a new PIN number for Your Account.
Rush Fee:
$65.00 second day. If Your Account is subject to a Rush Fee, except as limited by applicable law, a fee may be charged to
Your Account for each rush Card that You request, providing that delivery of the Card is also available by standard mail
service, without paying a fee for delivery.
Statement Copy Fee:
$5.00 . If Your Account is subject to a Statement Copy Fee, except as limited by applicable law and when the request is
made in connection with a billing error made by the Credit Union, a fee may be charged to Your Account for each copy of a
sales draft or statement that You request.
Express Shipping Fee:
$90.00 Overnight. If Your Account is subject to an Express Shipping Fee, except as limited by applicable law, a fee may be
charged to Your Account for each Express Shipping Card that You request, providing that delivery of the Card is also
available by standard mail service, without paying a fee for delivery.

SEE NEXT PAGE for more important information about Your Account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02100861-MXC20-C-3-122018 (MXC201-E)

Collection Costs:
For Michigan Borrowers: You promise to pay all costs of collecting the amount You owe under this Agreement to the
extent permitted by state law.
For All Other Borrowers: You agree to pay all costs of collecting the amount You owe under this Agreement, including
court costs and reasonable attorney's fees.
Periodic Rates:
The Purchase APR is 9.00% which is a daily periodic rate of 0.025%.
The Balance Transfer APR is 9.00% which is a daily periodic rate of 0.025%.
The Cash Advance APR is 9.00% which is a daily periodic rate of 0.025%.
Variable Rate:
The ANNUAL PERCENTAGE RATE may increase in the future. The ANNUAL PERCENTAGE RATE is subject to change
on the first day of the billing cycle quarterly to reflect any change in the Index and will be determined by the Prime Rate on
the first day of each calendar quarter (January, April, July and October), to which We add a margin. The ANNUAL
PERCENTAGE RATE will never be greater than 18.00%. Any increase in the ANNUAL PERCENTAGE RATE will result in
an increase in the amount of the interest You will pay, may increase Your minimum payment, and may increase the number
of payments to pay off Your balance. If the Index is no longer available, the Credit Union will choose a new index which is
based upon comparable information.
Margin:
Purchases will be charged at 4.00% above the Index.
Balance Transfers will be charged at 4.00% above the Index.
Cash Advances will be charged at 4.00% above the Index.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02100861-MXC20-C-3-122018 (MXC201-E)

